           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement— Audit                Date:       August 31, 2006
           of the Amount and Use of Revenue Derived From
           the Commercial Driver’s License Information
           System
           Project Number: 06M3010M000

From:                                                            Reply to
                                                                 Attn. of:   JA-40
           Kurt W. Hyde
           Assistant Inspector General
            for Surface and Maritime Programs
To:        Federal Motor Carrier Safety Administrator

           The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
           for Users (SAFETEA-LU) requires a comprehensive revamping of the
           Commercial Driver’s License Information System (CDLIS). CDLIS is the
           repository for over 10 million records of commercial drivers and is used by each
           state department of motor vehicles to track commercial driver’s license holders.
           The American Association of Motor Vehicle Administrators (AAMVA) operates
           CDLIS under an agreement with the Department of Transportation (DOT).
           AAMVA, a nonprofit entity, is comprised primarily of motor vehicle and law
           enforcement administrators from the United States and Canada and other
           governmental entities.

           SAFETEA-LU also requires a baseline audit of the CDLIS addressing five areas:
           (1) the validity of data in the information system on a state-by-state basis; (2) the
           extent to which convictions are validly posted on a driver’s record;
           (3) recommendations to the Secretary on how to update the baseline audit annually
           to ensure that any shortcomings in the information system are addressed, and a
           methodology for conducting the update; (4) the identification, on a state-by-state
           basis, of any actions that the Inspector General finds necessary to improve the
           integrity of data collected by the system and to ensure the proper posting of
           convictions; and (5) an analysis of amounts and use of the revenues derived from
           fees charged for use of the commercial driver’s information system.
                                                                                 2



This audit will focus on the final area. The audit’s specific objectives are to:
(1) determine the total amount of revenue derived by the current operator of the
CDLIS from the fees charged for use of the system, and the CDLIS-related
expenses incurred by the current operator of the system; (2) compare the total
expenses to revenue received; and (3) determine how revenues and fees should be
addressed under the new modernization plan. The audit work for these objectives
will not require access to or collection of any personally identifiable information
that the CDLIS maintains. We will address the remaining four areas for the
baseline audit at a later time.

We will conduct audit work at Federal Motor Carrier Safety Administration
Headquarters, AAMVA, and other locations to be determined. We plan to begin
this audit immediately. Joe Comé is the Program Director and Paulette Heggins-
Carter is the Project Manager for this audit. If you have questions or require
additional information, please contact me at (202) 366-5630, or Joe Comé at
(202) 366-0377.

                                        #

cc: National Highway Traffic Safety Administrator
